No. _____
IN THE

Supreme Court of the United States
DERRICK LUCIUS WILLIAMS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
PETITION FOR WRIT OF CERTIORARI
Josh Lee
FEDERAL PUBLIC
DEFENDER
633 17th Street
Suite 1000
Denver, CO 80202

Shay Dvoretzky
Counsel of Record
Andrew J. M. Bentz
Parker Rider-Longmaid
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

Counsel for Petitioner

i
QUESTION PRESENTED
When Petitioner Derrick Williams arrived from
Europe at Denver International Airport, government
agents seized his laptop, used forensic software to
break the password and copy its data bit-for-bit, and
then searched the files. The agents had neither a warrant nor suspicion that Mr. Williams was inadmissible,
smuggling contraband, or evading customs duties.
The question presented is:
To conduct a warrantless forensic search of a digital device at the border, do government agents need
reasonable suspicion that the device contains digital
contraband (as the Ninth Circuit requires), reasonable suspicion that the device contains evidence of a
particular crime with a nexus to the purposes of the
border search exception to the warrant requirement
(as the Fourth Circuit requires), reasonable suspicion
of any kind of criminal activity (which suffices in the
Tenth Circuit), or no suspicion whatsoever (as the
Eleventh Circuit permits)?

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
The parties to the proceeding below were Petitioner Derrick Lucius Williams, Jr., and Respondent
the United States of America. There are no nongovernmental corporate parties requiring a disclosure
statement under Supreme Court Rule 29.6.
RELATED PROCEEDINGS
United States District Court (D. Colo.):
United States v. Derrick Lucius Williams Jr.,
No. 1:16-cr-00249-WJM (Sept. 25, 2017)
United States Court of Appeals (10th Cir.):
United States v. Derrick Lucius Williams, Jr.,
No. 18-1299 (Nov. 14, 2019)

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT .................................. ii
RELATED PROCEEDINGS ..................................... ii
TABLE OF AUTHORITIES ....................................... v
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 3
JURISDICTION ......................................................... 3
CONSTITUTIONAL PROVISION INVOLVED ....... 3
STATEMENT OF THE CASE ................................... 4
REASONS FOR GRANTING THE WRIT ............... 12
I.

The courts of appeals are split four ways
on the suspicion required for a forensic
search of an electronic device at the border ..... 12
A. The Ninth Circuit requires reasonable
suspicion that the electronic device
contains digital contraband ........................ 13
B. The Fourth Circuit requires
reasonable suspicion that the forensic
search will reveal contraband or
evidence of a crime with a nexus to the
purposes of the border search
exception ...................................................... 18
C. In the Tenth Circuit, reasonable
suspicion of any criminal activity
suffices ......................................................... 21

iv
TABLE OF CONTENTS
(continued)
Page
D. The Eleventh Circuit requires no
suspicion whatsoever .................................. 22
II. The question presented is exceptionally
important ........................................................... 26
III. The Tenth Circuit’s decision is wrong .............. 31
IV. This case is an ideal vehicle .............................. 34
CONCLUSION ......................................................... 35
APPENDIX A: Opinion of the Tenth Circuit
(November 14, 2019) .......................................... 1a
APPENDIX B: Opinion of the District Court
for the District of Colorado
(September 25, 2017) ....................................... 10a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Alasaad v. Nielson,
No. 17-cv-11730, 2018 WL 2170323
(D. Mass. May 9, 2018) ........................................ 28
Arizona v. Gant,
556 U.S. 332 (2009) .......................................... 5, 32
Boyd v. United States,
116 U.S. 616 (1886) .............................................. 32
Carpenter v. United States,
138 S. Ct. 2206 (2018) ...................................... 1, 29
Florida v. Royer,
460 U.S. 491 (1983) .............................................. 33
Kansas v. Glover,
No. 18-556, 2020 WL 1668283
(U.S. Apr. 6, 2020)................................................ 13
Riley v. California,
573 U.S. 373 (2014) ...................................... passim
United States v. Aigbekaen,
943 F.3d 713 (4th Cir. 2019) ........................ passim
United States v. Cano,
934 F.3d 1002 (9th Cir. 2019) .............. 2, 14, 16, 17
United States v. Cotterman,
709 F.3d 952 (9th Cir. 2013) (en banc) ........ passim
United States v. Flores-Montano,
541 U.S. 149 (2004) ...................................... passim

vi
TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. Kolsuz,
890 F.3d 133 (4th Cir. 2018) ........................ passim
United States v. Molina-Isidoro,
884 F.3d 287 (5th Cir. 2018) .......................... 32, 33
United States v. Montoya de Hernandez,
473 U.S. 531 (1985) ...................................... passim
United States v. Ramsey,
431 U.S. 606 (1977) .......................................... 4, 32
United States v. Saboonchi,
990 F. Supp. 2d 536 (D. Md. 2014) ...................... 29
United States v. Touset,
890 F.3d 1227 (11th Cir. 2018) .................... passim
United States v. Vergara,
884 F.3d 1309 (11th Cir. 2018) .................... passim
Warden v. Hayden,
387 U.S. 294 (1967) .............................................. 32
CONSTITUTIONAL AND STATUTORY AUTHORITIES
U.S. Const. amend. IV ....................................... passim
28 U.S.C. § 1254 .......................................................... 3
OTHER AUTHORITIES
Apple, Compare Mac models ..................................... 28
Craig M. Bradley, Constitutional
Protection for Private Papers,
16 HARV. C.R.-C.L. L. REV. 461 (1981) ................ 28

vii
TABLE OF AUTHORITIES
(continued)
Page(s)
CBP, CBP Releases Updated Border
Search of Electronic Device Directive
and FY17 Statistics (Jan. 5, 2018) ...................... 30
CBP, CBP Trade and Travel Report:
Fiscal Year 2018 (July 2019) ............................... 30
Pew Research Center, Mobil Fact Sheet
(June 12, 2019) ..................................................... 29
Charlie Savage & Ron Nixon, Privacy
Complaints Mount Over Phone
Searches at U.S. Border Since 2011,
N.Y. TIMES (Dec. 22, 2017) .................................. 30
Jenia I. Turner, Managing Digital Discovery
in Criminal Cases,
109 J. CRIM. L. & CRIMINOLOGY 237 (2019) ......... 28

1
INTRODUCTION
This case presents an ideal vehicle to resolve a
four-way circuit split on an issue of exceptional importance to millions of Americans.
Citizens returning from abroad know that some of
their freedoms are curtailed as they cross the border.
After all, “[t]he Government’s interest in preventing
the entry of unwanted persons and effects is at its zenith at the international border.” United States v. Flores-Montano, 541 U.S. 149, 152 (2004). So travelers
may expect routine searches without any suspicion.
United States v. Montoya de Hernandez, 473 U.S. 531,
538 (1985).
But nearly all Americans carry cell phones—some
everywhere they go—and many travel with laptops.
Surely they would be surprised that border agents
might “rummage through” their electronic devices “in
an unrestrained search for evidence of criminal activity.” Riley v. California, 573 U.S. 373, 403 (2014). Indeed, when British officers took such an approach to
the Founding generation’s homes, they “helped spark
the Revolution itself.” Carpenter v. United States, 138
S. Ct. 2206, 2213 (2018). And “a cell phone search
would typically expose to the government far more
than the most exhaustive search of a house,” because
from his digital devices “[t]he sum of an individual’s
private life can be reconstructed through a thousand
photographs labeled with dates, locations, and descriptions,” not to mention the “picture messages, text
messages, Internet browsing history,” “calendars, tape
recorders, libraries, diaries, albums,” and more that
such devices contain. Riley, 573 U.S. at 393–94.

2
An American flying into Seattle or Los Angeles
from a trip abroad can deplane with little worry: Government agents may forensically search his laptop or
smartphone only if they reasonably suspect that it
contains digital contraband, like child pornography.
They may not simply download all his files and scrutinize them for evidence of criminal activity, whether
or not related to the government’s interest in keeping
contraband from crossing the border. United States v.
Cano, 934 F.3d 1002, 1007, 1020 (9th Cir. 2019).
If the traveler lands at Reagan or BWI, the rules
are different. Agents may forensically search his laptop or smartphone if they have reasonable suspicion
that it contains evidence of a particular crime with a
nexus to the purposes of the border search exception
to the Fourth Amendment’s usual warrant requirement. In other words, they can look for evidence of
particular border-related crimes, not just contraband.
See United States v. Aigbekaen, 943 F.3d 713, 720–23
(4th Cir. 2019).
If the traveler arrives in Denver or Salt Lake City,
the rules are even more lax. In the Tenth Circuit, reasonable suspicion of criminal activity—even if untethered to digital contraband or the border search exception’s purposes—is all it takes for officers to copy his
digital data and analyze it six ways to Sunday, as Petitioner Derrick Williams discovered here. App. 6a–9a.
But any traveler who values his privacy should really avoid entering the country via Miami or Atlanta.
In the Eleventh Circuit, every computer or cell phone
is no different than a suitcase. Officers can rummage
at will through an individual’s private digital life with
no suspicion whatsoever. United States v. Touset, 890
F.3d 1227, 1229, 1233–34 (11th Cir. 2018).

3
The courts of appeals disagree vigorously about
the correct rule. In twelve opinions—both majority
and separate—judges have articulated every conceivable view on the question presented. Given that hundreds of millions of people cross the border each
year—most of them with digital devices—this Court
should not wait any longer to answer the pressing
question presented.
OPINIONS BELOW
The court of appeals’ opinion is reported at 942
F.3d 1187 and reproduced at App. 1a–9a. The district
court’s opinion is unpublished but available at 2017
WL 11491959 and reproduced at App. 10a–38a.
JURISDICTION
The court of appeals affirmed the district court’s
judgment on November 14, 2019. App 1a, 9a. On January 31, 2020, Justice Sotomayor extended the time
to file this petition until April 13, 2020. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment to the United States Constitution provides in relevant part:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.

4
STATEMENT OF THE CASE
1. The Fourth Amendment protects against “unreasonable searches and seizures.” U.S. Const. amend.
IV. Ordinarily, government searches to uncover criminal wrongdoing require a warrant supported by probable cause. Riley, 573 U.S. at 382. “In the absence of a
warrant, a search is reasonable only if it falls within
a specific exception to the warrant requirement.” Id.
a. One exception applies at the border (or its
functional equivalent). Montoya de Hernandez, 473
U.S. at 538. At the border, agents need neither a warrant nor suspicion of criminal activity to conduct routine searches. Id. That exception reflects “the recognized right of the sovereign to control, subject to substantive limitations imposed by the Constitution, who
and what may enter the country.” United States v.
Ramsey, 431 U.S. 606, 620 (1977). It acknowledges the
government’s interests in “preventing the entry of unwanted persons and effects,” Flores-Montano, 541 U.S.
at 152, “regulat[ing] the collection of duties,” and “prevent[ing] the introduction of contraband,” Montoya de
Hernandez, 473 U.S. at 537.
But the border exception is not unlimited. That is
because the Fourth Amendment’s “ultimate touchstone” is “reasonableness.” Riley, 573 U.S. at 381.
Thus, courts must balance the defendant’s “Fourth
Amendment rights” “against the sovereign’s interests
at the border.” Montoya de Hernandez, 473 U.S. at 539.
Indeed, in Montoya de Hernandez the Court held that
“the detention of a traveler at the border, beyond the
scope of a routine customs search and inspection”—
overnight detention to see if a bowel movement would
produce drugs—must be “justified” by “reasonabl[e]
susp[icion] that the traveler is smuggling contraband

5
in her alimentary canal.” Id. at 541. The Court so held
even though the “longstanding concern for the protection of the integrity of the border” was “heightened by
the veritable national crisis in law enforcement
caused by smuggling of illicit narcotics.” Id. at 538.
By contrast, in Flores-Montano the Court held
that reasonable suspicion was not required for a border search of a vehicle’s gas tank that revealed marijuana. 541 U.S. at 150. The Court explained “the reasons that might support a requirement of some level
of suspicion in the case of highly intrusive searches of
a person—dignity and privacy interests of the person
being searched—simply do not carry over to vehicles.”
Id. at 152. Emphasizing “[t]he Government’s interest
in preventing the entry of unwanted persons and effects,” the Court noted the thousands of “vehicle drug
seizures at the southern California ports of entry” over
the preceding 5½ years. Id. at 152–53. And the Court
reasoned that “[i]t is difficult to imagine how the
search of a gas tank, which should be solely a repository for fuel, could be more of an invasion of privacy
than the search of the automobile’s passenger compartment.” Id. at 154.
b. Warrantless searches are reasonable only if
tethered to “the justifications underlying” the particular exception to the warrant requirement. Arizona v.
Gant, 556 U.S. 332, 343 (2009). And what may be justifiable in the case of traditional property may not extend to the electronic devices of our digital age. In Riley, the Court held that, despite the traditional exception allowing warrantless searches incident to arrest,
officers must obtain a warrant to search digital information on a cell phone seized from an arrestee. 573
U.S. at 378, 403. The Court observed that while the

6
Fourth Amendment permits warrantless searches incident to arrest given “concerns for officer safety and
evidence preservation,” neither of those rationales applies to searches of digital data. Id. at 384. Digital
data is not a weapon that the arrestee might use “to
resist arrest or effect his escape,” “[a]nd once law enforcement officers have secured a cell phone, there is
no longer any risk that the arrestee himself will be
able to delete incriminating data from the phone.” Id.
at 388.
The Court also recognized that searching digital
data on a cell phone works a “substantial additional
intrusion on privacy beyond the arrest itself.” Id. at
393. Treating digital searches like searches of physical
items “is like saying a ride on horseback is materially
indistinguishable from a flight to the moon.” Id. The
Court explained: “Cell phones differ in both a quantitative and a qualitative sense from other objects that
might be kept on an arrestee’s person” given their “immense storage capacity” and the types of information
they hold. Id. Digital data on cell phones “could reveal
an individual’s private interests or concerns” and
“where a person has been,” and “can form a revealing
montage of the user’s life,” more so than even the
items in a person’s home. Id. at 395–96.
c. This case lies at the intersection of those two
lines of authority and asks what level of suspicion government agents need to forensically search the digital
devices travelers carry across our borders many times
each day.
2. The material facts are undisputed. Derrick
Williams is a U.S. citizen and military veteran originally from Detroit. In November 2015, Mr. Williams’

7
flight from Paris landed at Denver International Airport. His arrival triggered “lookout” alerts in the U.S.
Customs and Border Protection (CBP) computer system. App. 2a. The alerts instructed officers to send Mr.
Williams to secondary screening, where he was met by
a Department of Homeland Security Agent, Kyle Allen.
Without a warrant or any suspicion that Mr. Williams
was inadmissible, transporting contraband, or evading customs duties, Agent Allen seized Mr. Williams’
laptop and sent it to an offsite lab. There, a forensic
expert used software to hack into the laptop and copy
all of its data. A week after the initial seizure, an
agent combing through the data on the laptop discovered child pornography. This case asks whether the
search of Mr. Williams’ laptop was constitutional.
a. Agent Allen began investigating Mr. Williams
in response to an FBI letter he received months before
Mr. Williams landed in Denver. The letter stated that
German police had arrested Mr. Williams for possessing a “bow/arrow and air gun.” App. 11a. The letter also said that German authorities were unsure
how Mr. Williams entered Germany. Back in 2011, Mr.
Williams had overstayed his German visa and been
banned for five years from entering Germany and
other Schengen countries. During his 2015 arrest in
Germany, Mr. Williams admitted that he had traveled
through several Schengen member states and was
planning to visit Morocco next. App. 3a.
Agent Allen did some more sleuthing. He discovered that Mr. Williams had prior state-court convictions for some nonviolent and non-drug-related crimes,
including trespass, unlawful use of a financial instrument, fraud, and escape from a community-corrections sentence. Id.

8
b. Mr. Williams landed in Denver in November
2015, less than two weeks after horrific terrorist attacks in Paris. Those attacks had prompted Agent Allen to review his open investigations, including his investigation of Mr. Williams. Though nothing linked
Mr. Williams to terrorist activity in any way, Agent Allen placed a CBP lookout on Mr. Williams. App. 2a–4a.
The day of Mr. Williams’ flight, Agent Allen went
to the airport with two computer specialists prepared
to search any electronic devices Mr. Williams might
have. Agent Allen had decided he was “going to search
[any] electronics no matter what.” R. vol. II at 110.
At the initial inspection point, Mr. Williams submitted a signed declaration form accurately reporting
that he was not carrying any unlawful goods, or goods
that might require the payment of duties. In the space
for “Countries visited on this trip,” he listed Belgium,
France, and Morocco. App. 4a. Based on Agent Allen’s
lookout alert, the agent at the primary inspection
point took Mr. Williams to Agent Allen for additional
screening. App. 2a–3a.
There, agents searched Mr. Williams’ luggage.
They found nothing illegal, taxable, or suspicious.
Agents also seized Mr. Williams’ laptop and
smartphone. The forensic specialists accompanying
Agent Allen tried unsuccessfully to crack the passwords to those devices. Id.
Meanwhile, Agent Allen and a local law enforcement officer interrogated Mr. Williams. They asked
him why he had traveled abroad. Mr. Williams explained that he went to marry a woman in Morocco.
Because he was allowed to stay in Morocco for only
three months at a time, when those first three months

9
were up he traveled to Belgium and stayed there until
he could return to Morocco. He married the woman on
his second trip to Morocco. App. 15a–16a.
The officers also asked Mr. Williams for the passwords to his laptop and phone. He refused, stating
that searching those devices would be an invasion of
his privacy. The officers told Mr. Williams they would
keep the devices and asked him where they should be
returned. The address he gave was different from the
address he had listed on his customs form. The officers
did not follow up on the discrepancy.
The officers next asked Mr. Williams about the
terrorist attacks in Paris. Mr. Williams denounced the
terrorists as “fake Muslims” whose actions were “totally against what Islam is about.” Gov’t Ex. 10 at
19:35–20:05. He told the officers he had been in Paris
for only a few days, and not when the attacks occurred.
Finally, the officers asked Mr. Williams about his
travels in Germany. They repeatedly asked if he had
been there in the past six months. Mr. Williams did
not give a straight answer. The officers then allowed
Mr. Williams to enter the country. App. 5a.
c. The next day, Agent Allen took Mr. Williams’
laptop and phone to a lab where forensic specialists
began their work. They first removed the computer’s
hard drive and attached it to a Tableua SATA writeprotection device. They then used forensic software,
EnCase 7.10, to hack into the hard drive. R. vol. II at
137–38. The specialists then copied “[e]very bit of binary information” onto a government hard drive, including Mr. Williams’ emails, search history, and even
deleted files. Id. at 120. In addition, the software created a forensic disk image, interpreted the data, and

10
reconstructed it onto a forensic analysis platform.
This process took “most of [a] day.” Id. at 140.
The specialists were unable to break the encryption on Mr. Williams’ smartphone. But eventually a
different government lab was able to search the phone.
Analysts found nothing illegal. App. 22a.
The agents waited five more days before searching
the laptop again. Eventually, using the forensic software and the forensic analysis platform, an agent
searching the data on the laptop discovered child pornography. The agent paused the search. Two days
later, after obtaining a warrant, agents uncovered
more images and videos of child pornography. App. 5a.
3. The government indicted Mr. Williams on one
count of transporting child pornography and one
count of possessing child pornography. App. 10a. Mr.
Williams moved to suppress the evidence from his laptop. He acknowledged that under the border exception
to the warrant requirement, agents may generally
conduct routine searches at the border without any
suspicion. He argued, however, that an intrusive
search of personal electronic devices could be conducted only if the agents had reasonable suspicion
tethered to one of the border search exception’s purposes. Mr. Williams argued that the search of his laptop was unconstitutional because it was “completely
disconnected from the considerations underlying the
breadth of the government’s authority to search at the
border.” R. vol. I at 168; see id. at 28–30, 159–63, 192–
93. He also argued that the second search (after the
warrant was issued) was tainted by the first.

11
The district court denied the suppression motion.
App. 10a–11a. The court assumed that the search required reasonable suspicion. But, the court concluded,
the reasonable suspicion could be of any criminal activity; it did not have to relate to a particular offense.
App. 32a. And based on Mr. Williams’ behavior, the
court held, the officers had reasonable suspicion that
Mr. Williams was engaged in some sort of illegal conduct. App. 35a.
Mr. Williams conditionally pleaded guilty, reserving his right to appeal the denial of his suppression
motion. He was sentenced to 84 months in prison and
five years of supervised release. App. 2a.
4. The Tenth Circuit affirmed. The court “decline[d]” to “find that searches of personal electronic
devices at the border must be supported by reasonable
suspicion.” App. 6a. Instead, the court thought “that
reasonable suspicion was present here.” Id. Though
the court never identified a particular crime the officers might have reasonably suspected, the court listed
four circumstances it thought gave rise to reasonable
suspicion of some sort of criminal activity. First, Mr.
Williams had “fled the United States a fugitive,” been
banned from entering Germany, and defied the German travel ban. App. 7a. Second, he did not list Germany on his customs form and “evaded all of Agent
Allen’s questions regarding his time in Germany.” Id.
Third, Mr. Williams traveled on a one-way ticket and
visited three countries (Belgium, France, and Morocco)
“intimately linked to the attacks” in Paris. App. 8a.
Fourth, when asked where he wanted his electronics
sent, Mr. Williams gave a different address than the
one listed on his customs form. Id.

12
The court of appeals rejected Mr. Williams’ argument that the agents’ suspicion “was not particularized enough to justify the search.” Id. Mr. Williams explained that, “because border agents did not suspect
him of” violating the laws “that border agents are
tasked exclusively with upholding,” i.e., “customs laws
and [laws against] the importation of contraband,”
they could not search his electronic devices. Id. The
court “disagree[d] because the Fourth Amendment
does not require law enforcement officers to close their
eyes to suspicious circumstances.” Id.
REASONS FOR GRANTING THE WRIT
I.

The courts of appeals are split four ways on
the suspicion required for a forensic search
of an electronic device at the border

The courts of appeals have divided four ways on
the kind of suspicion required for a warrantless border
search of digital data, with separate opinions expressing still additional views. The Ninth Circuit, over two
dissents, requires reasonable suspicion that an electronic device contains digital contraband. The Fourth
Circuit, disagreeing with two separate opinions, requires individualized suspicion that the device contains evidence of a particular offense with a “nexus to
the border search exception’s purposes of protecting
national security, collecting duties, blocking the entry
of unwanted persons, or disrupting efforts to export or
import contraband.” Aigbekaen, 943 F.3d at 721. The
Tenth Circuit below held that reasonable suspicion of
any criminal activity suffices. And the Eleventh Circuit requires no suspicion whatsoever—despite two
separate opinions, one concluding that officers must
get a warrant.

13
The split is outcome-determinative here, as it will
be in most cases. Had Mr. Williams landed in San
Francisco, the search would have been unconstitutional because the Ninth Circuit requires reasonable
suspicion that the device to be forensically searched
contains digital contraband—suspicion the agents did
not have. In fact, the court below did not identify any
particular crime of which agents supposedly had suspicion, even though “the Fourth Amendment requires … an individualized suspicion that a particular
citizen was engaged in a particular crime.” Kansas v.
Glover, No. 18-556, 2020 WL 1668283, at *5 n.1 (U.S.
Apr. 6, 2020) (emphasis added). Similarly, had Mr.
Williams landed at Reagan, the search would have
been unconstitutional because nothing Mr. Williams
was supposedly suspected of doing had any nexus to
the border search exception’s purposes. But because
the search occurred in the Tenth Circuit, it was
deemed constitutional since the officers supposedly
had reasonable suspicion that some unspecified criminal activity was afoot. The search would also have
been constitutional in the Eleventh Circuit because
there officers need no suspicion at all.
This circuit split makes for a perfect cert candidate. Not only is the split outcome determinative, but
it reflects every possible view on the question presented, and the lower courts recognize their disagreement and have called for this Court’s guidance.
A. The Ninth Circuit requires reasonable
suspicion that the electronic device
contains digital contraband
In United States v. Cotterman, 709 F.3d 952, 967–
68 (9th Cir. 2013) (en banc), the en banc Ninth Circuit
held that the forensic examination of a laptop seized

14
at the border requires reasonable suspicion. And in
Cano, Judge Bybee, writing for the court, “clarif[ied]
Cotterman by holding that … cell phone searches at
the border, whether manual or forensic, must be limited in scope to a search for digital contraband.” 934
F.3d at 1007. Thus, “border officials may conduct a forensic cell phone search only when they reasonably
suspect that the cell phone contains contraband.” Id.
at 1020. Had Mr. Williams landed in the Ninth Circuit,
the forensic search would have been unconstitutional
because the agents did not reasonably suspect that
the laptop contained contraband.
1. a. In Cotterman, the Ninth Circuit held that
a forensic border laptop search requires reasonable
suspicion. 709 F.3d at 968. There, agents seized the
defendant’s “laptop at the U.S.–Mexico border in response to an alert based in part on a fifteen-year-old
conviction for child molestation.” Id. at 956. A forensic
search revealed child pornography. Id. at 958.
The Ninth Circuit acknowledged that “[t]he Government’s interest in preventing the entry of unwanted persons and effects is at its zenith at the international border.” Id. at 960 (quoting Flores-Montano, 541 U.S. at 152). But given “the expectation of
privacy … with respect to the gigabytes of data regularly maintained as private and confidential on digital
devices,” id. at 957, the court reasoned, the government’s interest “does not mean … that at the border
anything goes,” id. at 960.
“Electronic devices are capable of storing warehouses full of information”—far beyond the capacity
even of “a car full of packed suitcases with sensitive
documents.” Id. at 964. These devices, the court explained, also “contain the most intimate details of our

15
lives: financial records, confidential business documents, medical records and private emails.” Id. In the
court’s view, “[a] person’s digital life ought not be hijacked simply by crossing a border.” Id. at 965. Yet a
forensic examination of a laptop is “essentially a computer strip search” that “intrudes upon privacy and
dignity interests to a far greater degree than a cursory
search at the border.” Id. at 966. Given the “substantial intrusion upon personal privacy and dignity”
wrought by a forensic digital search, id. at 967, the
court held that the Fourth Amendment requires “a
particularized and objective basis for suspecting the
particular person stopped of criminal activity,” id. at
968.
b. Judge Callahan dissented in relevant part.
She thought the majority’s holding “flout[ed] more
than a century of Supreme Court precedent, [was] unworkable and unnecessary, and [would] severely hamstring the government’s ability to protect our borders.”
Id. at 971 (Callahan, J., concurring in part, dissenting
in part, and concurring in the judgment). At the border, she reasoned, the government’s strong security
interests make “searches of people and their property … per se reasonable.” Id. “The fact that electronic
devices are capable of storing a lot of personal information does not make an extensive search of them
‘particularly offensive,’” she opined. Id. at 977 (quoting Flores-Montano, 541 U.S. at 154 n.2). She warned
that “the majority’s new limits … will make it much
harder for border agents to do their jobs.” Id. at 979.
c. Judge Milan Smith also dissented. Id. at 981–
88 (M. Smith, J., dissenting). In his view, the en banc
decision left border agents “to divine on an ad hoc ba-

16
sis whether a property search is sufficiently ‘comprehensive and intrusive’ to require reasonable suspicion.”
Id. at 981. He protested that “the majority opinion
makes such a legal bouillabaisse out of the previously
unambiguous border search doctrine, that [he] sincerely hope[d] the Supreme Court will grant certiorari.” Id.
2. In Cano, the Ninth Circuit built on Cotterman,
holding that “cell phone searches at the border,
whether manual or forensic, must be limited in scope
to a search for digital contraband.” 934 F.3d at 1007.
Writing for the court, Judge Bybee explained that forensic searches must be based on reasonable suspicion
that the device contains digital contraband. Id. at
1020. There, border agents arrested the defendant
when a dog sniff alerted them to cocaine in his vehicle’s spare tire. Id. at 1008. After manually searching
the phone, agents used forensic software to download
its data. Id. at 1008–09.
The Ninth Circuit held that the forensic search
and one of the manual searches violated the Fourth
Amendment. The court explained that border
searches, as exceptions to the warrant requirement,
“are subject to two important constraints”:
(1) searches “must be within the scope of the exception”
and (2) searches that are sufficiently “intrusive … require additional justification, up to and including
probable cause and a warrant.” Id. at 1010–11. On the
second point, the Ninth Circuit extended to cell
phones Cotterman’s requirement of reasonable suspicion to search laptops. Id. at 1014. The court observed
that in Cotterman it had “anticipated the Supreme
Court’s reasoning in Riley,” and that it could “find no
basis to distinguish a forensic cell phone search from

17
a forensic laptop search.” Id. at 1015. The court noted,
however, that in the intervening years “the Eleventh
Circuit disagreed with Cotterman,” instead holding
“that no level of suspicion was required to conduct a
forensic search of a cell phone.” Id. at 1015 n.8.
On the first point, the Ninth Circuit held that the
“exception authorizes warrantless searches of a cell
phone only to determine whether the phone contains
contraband,” not “search[es] for evidence of border-related crimes.” Id. at 1017–18; see id. at 1013–14. Although border officials may seize contraband, the court
reasoned, they “have no general authority to search
for crime,” “even if there is a possibility that such
crimes may be perpetrated at the border in the future.”
Id. at 1017. The court explained that the border
search exception could not extend beyond the historic
rationale of locating contraband to searching for evidence. Id. at 1018 (quoting Boyd v. United States, 116
U.S. 616, 623 (1886), overruled in part on other
grounds by Warden v. Hayden, 387 U.S. 294 (1967)).
The Ninth Circuit recognized its disagreement
“with the Fourth Circuit’s decision in” United States v.
Kolsuz, 890 F.3d 133 (4th Cir. 2018). Cano, 934 F.3d at
1017. In Kolsuz, the Fourth Circuit held that “the justification behind the border search exception is broad
enough to accommodate not only the direct interception of contraband as it crosses the border”—as far as
the Ninth Circuit would go—but also “the power to
search for evidence of contraband that is not present
at the border.” Id. at 1017–18 (explaining Kolsuz).

18
B. The Fourth Circuit requires reasonable
suspicion that the forensic search will
reveal contraband or evidence of a crime
with a nexus to the purposes of the
border search exception
Border officials need reasonable suspicion to conduct a forensic search of digital data in the Fourth Circuit too. But reasonable suspicion isn’t limited to digital contraband. Agents may search for evidence based
on “individualized suspicion of an offense that bears
some nexus to the border search exception’s purposes
of protecting national security, collecting duties,
blocking the entry of unwanted persons, or disrupting
efforts to export or import contraband.” Aigbekaen,
943 F.3d at 721. Had Mr. Williams landed in the
Fourth Circuit, the search would have been unconstitutional because the agents didn’t reasonably suspect
that they would find evidence of any crime with such
a nexus. Indeed, the Tenth Circuit didn’t articulate
reasonable suspicion of any particular crime at all. See
App. 7a–8a.
1. a. In Kolsuz, the Fourth Circuit held that a
forensic search of a smartphone at the border is a nonroutine search “requiring some measure of individualized suspicion.” 890 F.3d at 137. There, agents arrested the defendant as he was attempting to board a
flight to Turkey after finding firearms parts for which
he lacked an export license in his luggage. Id. at 136–
39. The agents eventually conducted a forensic search
of the defendant’s iPhone. Id. at 139.
The Fourth Circuit reasoned, “As a general rule,
the scope of a warrant exception should be defined by
its justifications.” Id. at 143. But, the court noted, the
agents “reasonably believed that their search would

19
reveal not only evidence of the export violation they
already had detected, but also information related to
other ongoing attempts to export illegally various firearms parts.” Id. That suspicion, in other words, was of
“a transnational offense that goes to the heart of the
border search exception, which rests in part on the
sovereign interest of protecting and monitoring exports from the country.” Id.
The Fourth Circuit then concluded that “a forensic
border search of a phone must be treated as nonroutine, permissible only on a showing of individualized
suspicion.” Id. at 144. Discussing Riley, the court reasoned that “[t]he sheer quantity of data stored on
smartphones and other digital devices dwarfs the
amount of personal information that can be carried
over a border—and thus subjected to a routine border
search—in luggage or a car.” Id. at 145. And, it reasoned, “[t]he uniquely sensitive nature of that information matters.” Id.
b. Judge Wilkinson concurred only in the judgment. In his view, “[t]he standard of reasonableness in
the particular context of a border search should be
principally a legislative question, not a judicial one.”
Id. at 148 (Wilkinson, J., concurring in the judgment).
He pointed to the government’s “powerful” interests at
the border and opined that setting a constitutional
“floor” is “a hugely consequential policy judgment” better left to “the legislative process.” Id. at 151.
2. a. The Fourth Circuit applied Kolsuz in
Aigbekaen, concluding that warrantless forensic
searches of a laptop, iPhone, and iPod turning up child
pornography violated the Fourth Amendment because
the agents had reasonable suspicion only that the defendant “had previously committed grave domestic

20
crimes,” i.e., sex trafficking. 943 F.3d at 720–23. “[T]o
conduct such an intrusive and nonroutine search under the border search exception,” the court reiterated,
“the Government must have individualized suspicion
of an offense that bears some nexus to the border
search exception’s purposes of protecting national security, collecting duties, blocking the entry of unwanted persons, or disrupting efforts to export or import contraband.” Id. at 721. The court did “not question the import of the Government’s general interest
in combatting crime.” Id. at 722. But that generalized
interest cannot “eclipse[] individuals’ privacy interests in the vast troves of data contained on their digital devices when the suspected offenses have little or
nothing to do with the border.” Id. The court explained
that “suspicion that [a] phone may contain evidence of
any prior domestic crime” does not trigger the border
search exception. Id. at 723.
The Fourth Circuit also rejected the government’s
argument that suspicion of sex trafficking sufficed
simply because it “commonly involv[es] cross-border
movements.” Id. at 721. The court explained that officers must have “individualized suspicion” that the
crime “in the individual case at hand” has a “transnational component” tethered to the border search exception’s purposes. Id.
b. Judge Richardson concurred only in the judgment, opining that the majority’s “‘nexus’ test … is in
deep tension with Supreme Court precedent.” Id. at
726 (Richardson, J., concurring in the judgment). In
his view, “[t]he Supreme Court has limited the bordersearch doctrine only when the intrusiveness of the
search makes it unreasonable without particularized
suspicion,” whereas the majority’s nexus requirement

21
turned instead on “the nature of the government’s interests at stake.” Id. at 730. Thus, although he found
“historical support” for the Ninth Circuit’s view that
“the border-search doctrine is concerned solely with
detection of contraband,” he thought “lower-court
judges” powerless to “rewrite” the law. Id. at 730–31.
Judge Richardson also dismissed the majority’s reliance on Riley because it “concerned the far different
context of searches incident to arrest” and because it
focused on “the type of search—not the suspicion motivating the search.” Id.
C. In the Tenth Circuit, reasonable
suspicion of any criminal activity
suffices
In this case, the Tenth Circuit cursorily rejected
Mr. Williams’ argument that “because border agents
did not suspect him” of crimes involving the customs
laws or contraband, “they were prevented from
searching his laptop and cell phone.” App. 8a. The
court stated only that it “disagree[d] because the
Fourth Amendment does not require law enforcement
officers to close their eyes to suspicious circumstances.”
Id. (cleaned up). The reasonable suspicion it found
turned on (1) “Mr. Williams’s criminal history concern[ing] border offenses”—apparently his unlawful
time in Germany; (2) his failure to disclose that he had
traveled to Germany; (3) his return “on a one-way
ticket originating in Paris—the site of devastating terrorist attacks less than two weeks earlier”; and (4) the
discrepancy between the address he wrote on the customs form and the address to which he wanted his
electronics returned. App. 7a–8a.
What crime it thought that added up to, the Tenth
Circuit didn’t say. Unlike the Ninth Circuit, the Tenth

22
Circuit didn’t require reasonable suspicion of digital
contraband (and there was no such suspicion). And
unlike the Fourth Circuit, it didn’t require reasonable
suspicion of evidence of a particular crime with a
nexus to the border search exception’s purposes (and,
once again, there was no such suspicion).
D. The Eleventh Circuit
suspicion whatsoever

requires

no

The Eleventh Circuit requires no suspicion or
nexus whatsoever for border searches of digital devices. The court first rejected a warrant requirement
in United States v. Vergara, 884 F.3d 1309, 1311 (11th
Cir. 2018), over a vigorous dissent by Judge Jill Pryor.
It then rejected reasonable suspicion in Touset. 890
F.3d at 1229, 1233–34. Thus, had Mr. Williams landed
in Miami, the search of his laptop would have passed
constitutional muster.
1. a. In Vergara, a divided panel of the Eleventh Circuit, in an opinion by Judge William Pryor,
held that “border searches never require a warrant or
probable cause.” 884 F.3d at 1311. The court therefore
rejected the defendant’s argument that the trial court
should have suppressed child pornography discovered
during warrantless forensic searches of his phones. Id.
at 1312–13. This Court’s decision in Riley did “not
change this rule,” the panel majority reasoned, because the Court there stated that “‘even though [the
search-incident-to-arrest exception] does not apply to
cell phones, other case-specific exceptions may still
justify a warrantless search of a particular phone.’” Id.
(quoting Riley, 573 U.S. at 401–02).
b. Judge Jill Pryor dissented. “[P]redict[ing] how
the Supreme Court would balance the interests” given

23
this Court’s recognition in Riley of “the significant privacy interests implicated in cell phone searches,” she
concluded that “a forensic search of a cell phone at the
border requires a warrant supported by probable
cause.” Id. at 1313 (J. Pryor, J., dissenting). She explained that “the privacy interests implicated in forensic searches are even greater than those involved in
the manual searches at issue in Riley,” which involved
devices “fundamentally different from any object traditionally subject to government search at the border.”
Id. at 1315. “Before cell phones,” Judge Pryor observed,
“border searches were limited by ‘physical realities’
that ensured any search would impose a relatively
narrow intrusion on privacy,” id., whereas “a cell
phone search ‘typically expose[s] to the government
far more than the most exhaustive search of a house,’”
id. at 1316 (quoting Riley, 573 U.S. at 396). That is
especially true in the case of forensic searches, which
are “experts’ work, performed by a trained analyst at
a government forensics laboratory.” Id.
Judge Pryor next reasoned that “the rationales
underlying the border search exception lose force
when applied to forensic cell phone searches.” Id. at
1317. For starters, “cell phones do not contain the
physical contraband that border searches traditionally have prevented from crossing the border,
‘whether that be communicable diseases, narcotics, or
explosives.’” Id. (quoting Montoya de Hernandez, 473
U.S. at 544). And “electronic contraband is borderless
and can be accessed and viewed in the United States
without ever having crossed a physical border.” Id. In
Judge Pryor’s view, the possibility that “forensically
searching a cell phone may lead to the discovery of

24
physical contraband” already “inside the border” presents only a “general law enforcement justification …
quite far removed from the purpose originally underlying the border search exception.” Id.
Judge Pryor also criticized the majority’s cramped
view of Riley. Contrary to the majority’s claim, she explained, this Court’s reservation of “other case-specific
exceptions [that] may still justify a warrantless
search” referred to “extreme hypotheticals” concerning immediate danger that could thus trigger the exigent circumstances exception to the warrant requirement. Id. at 1318 (quoting Riley, 573 U.S. at 402).
2. a. Shortly after Vergara, a divided panel of
the Eleventh Circuit, in another opinion by Judge William Pryor, concluded that “the Fourth Amendment
does not require any suspicion for forensic searches of
electronic devices at the border.” Touset, 890 F.3d at
1231. Touset involved forensic searches of laptops and
external hard drives that revealed child pornography.
Id. at 1230. The border agents were acting on a “lookout” based on a “series of investigations by private organizations and the government [that] suggested that
[the defendant] was involved with child pornography.”
Id. Despite concluding that the agents had reasonable
suspicion that the defendant had child pornography
on the devices, id. at 1237–38, the court took the additional step of holding that no suspicion was required
anyway, id. at 1232–37.
The Eleventh Circuit reasoned that although this
Court “required reasonable suspicion for the prolonged detention of a person” in Montoya de Hernandez, it “has never required reasonable suspicion for a
search of property at the border.” Id. at 1233. The
panel found “no reason why the Fourth Amendment

25
would require reasonable suspicion for a forensic
search of an electronic device when it imposes no such
requirement for a search of other personal property.”
Id. In the majority’s view, questions about the intrusiveness or indignity of a search were relevant only to
a search of the body. Id. at 1234.
The Eleventh Circuit acknowledged that it disagreed with “the Fourth and the Ninth Circuits.” Id.
Those courts were wrong, it opined, because this
Court rejected a routine–nonroutine distinction in
Flores-Montano, and nothing in Riley was relevant. Id.
(citing 541 U.S. at 152). And, the majority continued,
“the Fourth Amendment does not guarantee the right
to travel without great inconvenience.” Id. at 1235.
The court further reasoned that “digital child pornography poses the same exact risk of unlawful entry at
the border as its physical counterpart,” and that “requir[ing] reasonable suspicion for searches of electronic devices … would create special protection for
the property most often used to store and disseminate
child pornography.” Id. The panel concluded that
courts “must allow Congress to design the appropriate
standard ‘through the more adaptable legislative process and the wider lens of legislative hearings.’” Id. at
1237 (quoting Kolsuz, 890 F.3d at 150 (Wilkinson, J.,
concurring in the judgment)).
b. Judge Corrigan (M.D. Fla., by designation)
did not join the panel majority’s holding that no suspicion is required. See id. at 1238 (Corrigan, J., concurring in part and concurring in the judgment). “In
the district court,” he explained, “the government
agreed that the applicable Fourth Amendment test
was whether there was reasonable suspicion.” Id. And

26
the court did not need to reach the issue given its holding that agents had reasonable suspicion. Id. at 1239.
*

*

*

In sum, the courts of appeals have divided four
ways on the question presented, with jurists taking
every position imaginable in 12 different opinions.
They have opined that the answer is simple—get a
warrant (J. Pryor, J.); that agents may search only on
reasonable suspicion of contraband (9th Cir.); that
agents may search on reasonable suspicion of evidence of a particular crime with a nexus to the border
search exception’s purposes (4th Cir.); that agents
may search on reasonable suspicion of any criminal
activity (10th Cir.); that agents don’t need any suspicion at all (11th Cir.); or that whatever suspicion is required is a question for Congress (Wilkinson, J.). The
question presented is outcome-determinative here, as
it will be in many cases. And further percolation will
not clarify the issue or suggest alternative approaches.
Lower courts, travelers, and border agents all urgently need this Court’s guidance now on this important question.
II. The question presented is exceptionally
important
This Court’s answer to the question presented will
have “a profound impact on law enforcement practices
at our ports of entry and on the individuals subjected
to those practices.” Vergara, 884 F.3d at 1318 (J. Pryor,
J., dissenting). The question implicates both the government’s interest in protecting our borders and individuals’ interest in remaining free from unreasonable
searches. And given the frequency with which the
question arises—hundreds of millions of people cross

27
our borders each year—this Court’s guidance is urgently needed.
A. To be sure, “[t]he Government’s interest in
preventing the entry of unwanted persons and effects
is at its zenith at the international border.” FloresMontano, 541 U.S. at 152. “Porous borders are
uniquely tempting to those intent upon inflicting the
vivid horrors of mass casualties.” Kolsuz, 890 F.3d at
152 (Wilkinson, J., concurring in the judgment). And
“there is the danger of highly classified technical information being smuggled out of this country only to
go into the hands of foreign nations who do not wish
us well and who seek to build their armaments to an
ever more perilous state.” Id. The government thus
needs tools “to prevent smuggling and to prevent prohibited articles from entry.” Montoya de Hernandez,
473 U.S. at 537–38.
But individuals still have a right to be free from
unreasonable searches. Knowing where the government’s interest must give way to the private interest
is vital in this digital age. The ubiquity of digital devices—nearly every American adult has a cellphone—
and of international travel—400 million travelers
crossed our Nation’s border in 2018—mean that border searches of these digital devices are becoming increasingly common. Clarity on when border agents
can forensically search travelers’ digital devices is
thus vitally important to both the federal government
and the hundreds of millions of people who cross our
border each year.
B. Modern digital devices “differ in both a quantitative and a qualitative sense from other objects that”
people once traveled with. Riley, 573 U.S. at 393. Today’s smartphones are capable of storing “millions of

28
pages of text, thousands of pictures, or hundreds of
videos.” Id. at 394. Laptops can currently store more
than a billion and a half pages of text or 80 days of
video.1
As this Court has noted, this immense storage capacity has “has several interrelated consequences for
privacy.” Id. Digital devices can reveal “nearly every
aspect of” a person’s life—“from the mundane to the
intimate.” Id. at 395. Not only do these devices collect
“in one place many distinct types of information—an
address, a note, a prescription, a bank statement, a
video—that reveal much more in combination than
any isolated record,” they also can contain data that
“date back of the purchase of the phone or even earlier.”
Id. at 394. “Smartphones and laptops contain the most
intimate details of our lives: financial records, confidential business documents, medical records and private emails.” Kolsuz, 890 F.3d at 145.
Searching these devices can cause dignitary and
psychological harms. The device may contain pictures
of a Muslim woman without her headscarf. Alasaad v.
Nielson, No. 17-cv-11730, 2018 WL 2170323, at *20 (D.
Mass. May 9, 2018). Or it may contain a recording of
person’s deepest thoughts conveyed to a therapist, so
a search “invad[es] not only the subject’s house but his
or her thoughts as well.” Craig M. Bradley, Constitutional Protection for Private Papers, 16 HARV. C.R.-C.L.
L. REV. 461, 483 (1981). As this Court put it, searching

1

See Apple, Compare Mac models, https://www.apple.com/mac/compare/ (last visited April 10, 2020); Jenia I.
Turner, Managing Digital Discovery in Criminal Cases, 109 J.
CRIM. L. & CRIMINOLOGY 237, 311 n.69 (2019).

29
a digital device “would typically expose to the government far more than the most exhaustive search of a
house.” Riley, 573 U.S. at 396.
And, of course, personal digital devices are everywhere. Cell phones are “such a pervasive and insistent
part of daily life that the proverbial visitor from Mars
might conclude they were an important feature of human anatomy.” Id. at 385. In the years since Riley,
their pervasiveness has only grown. Today, nearly
every American adult (96%) owns some kind of cell
phone; four-fifths own a smartphone. 2 And nearly
three-quarters of American adults own a computer,
whether a laptop or a desktop, while about half own
tablet computers.3
C. “[I]t is neither realistic nor reasonable to expect the average traveler to leave his digital devices
at home when traveling.” Kolsuz, 890 F.3d at 145; see
Cotterman, 709 F.3d at 965. People “compulsively
carry cell phones with them all the time.” Carpenter,
138 S. Ct. at 2218. “According to one poll, nearly
three-quarters of smart phone users report being
within five feet of their phones most of the time, with
12% admitting that they even use their phones in the
shower.” Riley, 573 U.S. at 395. Mobile devices serve
“as digital umbilical cords to what travelers leave behind at home or at work, indispensable travel accessories in their own right, and safety nets to protect
against the risks of traveling abroad.” United States v.
Saboonchi, 990 F. Supp. 2d 536, 557–58 (D. Md. 2014).
2

Pew Research Center, Mobil Fact Sheet (June 12, 2019),
https://www.pewresearch.org/internet/fact-sheet/mobile/
(last
visited April 10, 2020).
3

Id.

30
Given the staggering number of people crossing
the border each year, it’s no wonder searches of these
devices are on the rise. In fiscal year 2018, border
agents processed more than 413 million travelers—
more travelers than the entire population of the
United States.4 That is a 5.3% increase over 2017 and
a 10.5% increase compared to five years before.5
Searches of electronic devices have increased too.
In fiscal year 2017, CBP conducted 60% more searches
of electronic devices than in 2016, searching approximately 30,200 devices at the border and nearly tripling the annual number of searches since 2015.6 See
also Vergara, 884 F.3d at 1318 (J. Pryor, J., dissenting).
And travelers have filed hundreds of complaints with
the Department of Homeland Security over suspicionless searches of their digital devices.7
The question presented is thus important to both
the government and the hundreds of millions of people
who enter and leave the United States. The government needs tools to protect the sovereign borders and
4

CBP, CBP Trade and Travel Report: Fiscal Year 2018, at
1 (July 2019), https://www.cbp.gov/sites/default/files/assets/documents/2019-Jul/CBP%20FY18%20Trade%20and%20Travel
%20Report-compliant.pdf (last visited April 10, 2020).
5

Id.

6

CBP, CBP Releases Updated Border Search of Electronic
Device Directive and FY17 Statistics (Jan. 5, 2018),
https://www.cbp.gov/newsroom/national-media-release/cbp-releases-updated-border-search-electronic-device-directive-and
(last visited April 10, 2020).
7

Charlie Savage & Ron Nixon, Privacy Complaints Mount
Over Phone Searches at U.S. Border Since 2011, N.Y. TIMES (Dec.
22, 2017), https://www.nytimes.com/2017/12/22/us/politics/usborder-privacy-phone-searches.html (last visited April 10, 2020).

31
the people within them. And individuals need protection of their right against unreasonable searches. Because the question presented lies at the intersection
of national security and personal privacy and arises
daily, this Court’s guidance is sorely needed.
III. The Tenth Circuit’s decision is wrong
The Tenth Circuit erroneously concluded that reasonable suspicion of any criminal activity—even if untethered to digital contraband or the border search exception’s purposes—permits officers to forensically
search a traveler’s laptop.
First, as this Court has recognized, the Fourth
Amendment may demand reasonable suspicion even
at the border. Montoya de Hernandez, 473 U.S. at 541.
The question, as always, is how to balance the individual’s “Fourth Amendment rights” “against the sovereign’s interests.” Id. at 539.
Digital devices tip the scales. Riley makes clear
that digital devices differ qualitatively and quantitatively from items traditionally subject to search. 573
U.S. at 393–96. They contain vast amounts of information, much of it sensitive, all in one place. Id. at 394.
Before “the digital age, people did not typically carry
a cache of sensitive personal information with them as
they went about their day.” Id. at 395. Now the vast
majority of adults do. Id.; supra p. 29.
A cell phone search—particularly a forensic
search—allows officers “to rummage at will among a
person’s private effects.” Riley, 573 U.S. at 399 (quoting Gant, 556 U.S. at 345). A laptop search is no different, because laptops too “are capable of storing
warehouses full of information.” Cotterman, 709 F.3d

32
at 964. Such searches thus intrude deeply on an individual’s “dignity and privacy interests,” Flores-Montano, 541 U.S. at 152, for they allow the government
to piece together “[t]he sum of an individual’s private
life,” Riley, 573 U.S. 394. These searches are nothing
like the search of a gas tank, “which should be solely
a repository for fuel.” Flores-Montano, 541 U.S. at 154.
In short, equating digital searches with predigital
searches is like equating a Google search with thumbing through the Yellow Pages (or a trip to the launch
pad with a trip to the stables, Riley, 573 U.S. at 393).
Second, this Court has long recognized that exceptions to the warrant requirement extend only so far as
their rationales. See, e.g., Riley, 573 U.S. at 385–91;
Gant, 556 U.S. at 351. The purpose of the border
search exception isn’t to promote law enforcement or
to discover evidence of criminal behavior generally,
but to “protect[] this Nation from entrants who may
bring anything harmful into [it].” Montoya de Hernandez, 473 U.S. at 544; Ramsey, 431 U.S. at 606; United
States v. Molina-Isidoro, 884 F.3d 287, 289, 295 (5th
Cir. 2018) (Costa, J., specially concurring) (“[E]very
border-search case the Supreme Court has decided involved searches to locate items being smuggled.”).
Indeed, this Court has long distinguished between
“[t]he search for and seizure of stolen or forfeited
goods, or goods liable to duties,” on the one hand, and
“a search for and seizure of a man’s private books and
papers for the purpose … of using them as evidence
against him.” Boyd, 116 U.S. at 623. “The two things
differ toto coelo,” id.—that is, the “whole extent of the
heavens,” Molina-Isidoro, 884 F.3d at 296 (Costa, J.,
specially concurring). While border agents have long
been authorized to search for and seize contraband,

33
“[n]o similar tradition exists for unlimited authority
to search and seize items that might help to prove border crimes but are not themselves instrumentalities
of the crime.” Id. at 297. Because “a warrantless
search … must be limited in scope to that which is justified by the particular purposes served by the exception,” Florida v. Royer, 460 U.S. 491, 500 (1983) (opinion of White, J.), the border search exception authorizes warrantless searches of the digital data on electronic devices only on reasonable suspicion that it contains contraband.
Third, requiring reasonable suspicion of digital
contraband or of evidence of a crime related to the border search exception’s purposes will not throw border
security into chaos. But see Cotterman, 709 F.3d at 981
(M. Smith, J., dissenting); Kolsuz, 890 F.3d at 148–49
(Wilkinson, concurring in the judgment). In fact, “as a
matter of commonsense and resources, it is only when
reasonable suspicion is aroused that such searches
typically take place,” Cotterman, 709 F.3d at 967
n.14—or at least it should be, see also id. at 968 (Callahan, J., concurring in part, dissenting in part, and
concurring in the judgment) (“[B]order agents will
conduct forensic electronic searches of people who …
the agents reasonably suspect may be trying to carry
illegal articles into … the country.”). And even if requiring reasonable suspicion would “have an impact
on the ability of law enforcement to combat crime,”
that is because “[p]rivacy comes at a cost.” Riley, 573
U.S. at 401. Indeed, the rule in Riley applied to warrantless searches incident to arrest, even though such
searches “occur with far greater frequency than
searches conducted pursuant to a warrant.” Id. at 382.

34
No American would be surprised to learn that government agents need an objectively good reason to
search their digital devices. But most would be
shocked to learn that agents may copy their hard
drives bit-for-bit just because they fly in from another
country and somehow seem suspicious to the agents.
The Tenth Circuit erred in endorsing that approach.
IV. This case is an ideal vehicle
This case provides the Court with an ideal vehicle
to decide the question presented. The facts are
straightforward and undisputed, and there is no alternative holding. Supra pp. 6–12. The case boils down
to a clear legal question: What kind of suspicion is required to search a traveler’s digital devices at the border? Mr. Williams had the misfortune of landing in
Denver, where agents are free to rummage through
laptops if they reasonably suspect the owner of any
criminal activity. If he had landed in Miami, he might
have suffered the same fate, because agents there
need no suspicion at all. But had Mr. Williams landed
in Los Angeles, the forensic laptop search would have
been unconstitutional because the agents lacked reasonable suspicion that it contained contraband. So too
had he landed at Reagan or BWI, because the agents
did not reasonably believe they would find evidence on
his laptop of a crime involving threatening national
security, evading duties, inadmissibility, or importing
contraband.
No further percolation is necessary. The appellate
courts have thoroughly aired the issue, offering this
Court every conceivable legal rule. This case presents
the Court with an optimal opportunity to answer the
important question presented.

35
CONCLUSION
The Court should grant the petition for writ of certiorari.

April 13, 2020

Respectfully submitted,

Josh Lee
FEDERAL PUBLIC
DEFENDER
633 17th Street
Suite 1000
Denver, CO 80202

Shay Dvoretzky
Counsel of Record
Andrew J. M. Bentz
Parker Rider-Longmaid
JONES DAY
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
sdvoretzky@jonesday.com

Counsel for Petitioner

